         National Science Foundation      •   4201 Wilson Boulevard     •   Arlington, Virginia 22230
                                         Office of Inspector General


MEMORANDUM

DATE:         March 29, 2013

TO:           Jeffrey M. Lupis, Director
              Division of Acquisition and Cooperative Support (DACS)




FROM:         Dr. Brett M. Baker
              Assistant Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-13-1-003, Audit of University of Wisconsin-
         Madison’s Noncompliance with CAS 501, 502 and its Disclosed Practices Related
         to the IceCube Neutrino Observatory Cooperative Agreements


We contracted with the Defense Contract Audit Agency (DCAA) Tri-State Branch Office to
perform an incurred cost audit of approximately $218.8 million of interim incurred direct costs
claimed on the University of Wisconsin-Madison’s (UW-M) IceCube Cooperative Agreements,
previously issued to your office (Revised NSF OIG Audit Report No. OIG-13-1-001) dated
March 22, 2013. The period of performance audited was from August 1, 2002 through June 30,
2011. During the incurred cost audit, DCAA noted four specific instances of UW-M’s
noncompliance with Cost Accounting Standards (specifically CAS 501, 502) and UW-M’s
disclosed practices related to costs claimed on UW-M’s IceCube project under NSF Award Nos.
ANT-0236449, ANT-0639286, and ANT-0937462. 1 These noncompliances caused DCAA to
opine that UW-M’s interim incurred direct cost claims are not acceptable as submitted. DCAA
formally addressed the noncompliances in a separate CAS noncompliance report attached to this
transmittal memo. UW-M’s response is included in the attached DCAA audit report.

1
 The NSF IceCube Cooperative Agreements were awarded to fund the design, development, and construction of an
86-string array of mirrors in Antarctica, designed to capture and record neutrinos falling and embedded in the
Antarctic ice.

                                                      1
DCAA limited its audit to an examination of the UW-M’s cost accounting practices related to
interim incurred direct costs claimed under the IceCube Cooperative Agreements. This audit
included evaluating whether UW-M had complied with the CAS Board rules, regulations and
standards, and applicable Office of Management and Budget (OMB) Circulars A-21 and A-110
requirements during the performance of the cooperative agreements. DCAA performed its audit
in accordance with Generally Accepted Government Auditing Standards, with the exception that
DCAA does not currently have an external opinion on its quality control system.

The results of the DCAA audit are summarized below.

Results of Audit

DCAA found that UW-M did not comply with CAS and did not consistently follow accounting
practices disclosed in its CAS Disclosure Statement, resulting in $2,134,379 of questioned costs.
Correction of the noncompliances may also result in additional questioned costs. Specifically,
DCAA cited four cases in which UW-M’s actual cost accounting practices were noncompliant
with CAS 501, CAS 502 and its disclosed practices during the performance of the IceCube
Cooperative Agreements. For two of the four cases (points 1 and 4 below), DCAA determined
the cost impact and questioned costs accordingly ($2,127,594 in point 1 and $6,785 in point 4).
For the other two cases, the cost impact is not yet known and, to determine this, will require
UW-M to submit a cost impact proposal and revised incurred cost statements for the three
IceCube Cooperative Agreements that will ultimately need to be audited. Since the Department
of Health and Human Services (HHS) is the cognizant federal agency for negotiating and
administering indirect F&A rates for UW-M, we recommend that NSF work closely with HHS
Division of Cost Allocation (DCA) to resolve these recommendations.

The noncompliance findings, other significant issues, and the associated recommendations are
described below.

1. Facilities and Administrative (F&A) Costs Applied to Subawards over $25,000. UW-M did
not comply with its disclosed practices for applying its F&A rate to Cooperative Agreement No.
ANT-0236449. UW-M’s CAS Disclosure Statement excludes subawards over $25,000 from the
Facilities and Administration (F&A) base. Both           and      were identified as subawards in
budgets submitted to and approved by NSF. UW-M unilaterally changed their classification
from subawards to service agreements without adequate written documentation to justify these
changes. Reclassifying the subawards resulted in UW-M claiming increased F&A costs of
             for      and            for      (totaling            ) over the indirect allocation
that UW-M would have received on the subawards. The F&A costs increased because UW-M’s
        F&A rate is allocable to the entire amount of service agreement costs, whereas subaward
costs in excess of $25,000 are excluded from receiving an F&A allocation, per federal
regulations.

Recommendation 1: DCAA recommends that the $                    of increased F&A costs to NSF be
disallowed. To prevent the condition from recurring, DCAA also recommends that UW-M
establish a procedure to document why an award is determined to be a subaward (i.e., what
portion of the program the subrecipient is responsible for, and what management roles the

                                                2
subrecipient will be performing). UW-M should provide for changing a subaward to a service
agreement only if documentation is available to show that the scope of work has changed
significantly and no longer includes responsibility for a part of the program or management
functions. In addition, DCAA recommends obtaining prior written approval from the contracting
officer for any proposed classification change, which should include a budget impact showing
any increased F&A costs.


2. F&A Costs Commingled with Direct Charges in the Cost Accumulation Records. UW-M
commingled indirect F&A costs charged to the IceCube Cooperative Agreements with direct
costs in an internal account (Account 2650-Internal Services). UW-M reported the indirect costs
charged to these cooperative agreements on a line in its incurred cost statement called “Other
Expenditures” which contains both direct and indirect costs. The incurred cost statements for all
three cooperative agreements had a line for F&A costs with zero dollars as the amount. In
contrast, UW-M’s pricing proposals submitted to NSF identify indirect F&A costs as a separate
line item. Therefore, DCAA cited UW-M’s accounting practice as being noncompliant with
CAS 501 [48 CFR 9905.501-40(b)], which states that “an educational institution's cost
accounting practices used in accumulating and reporting actual costs for a contract shall be
consistent with the institution's practices used in estimating costs in pricing the related proposal.”
Also, OMB Circular A-110 C.21.b.4 states that recipients’ financial management systems shall
provide for “comparison of outlays with budget amounts for each award.” The budgeted amount
of F&A expenses cannot be compared to the actual F&A expenses claimed, since the actual F&A
expenses are not identified separately from the direct costs claimed.

UW-M asserted and DCAA agreed that the amount of F&A costs charged is available to the
university in its detailed transaction support. However, it is not available at the summary level,
so that UW-M has not met the basic requirement of CAS 501 “to accumulate and report actual
cost at a level which permits sufficient and meaningful comparison with its estimates.” UW-M
provided the total amount it has on record for F&A charges for the three cooperative agreements.
These amounts are $                for ANT-0236449; $              for ANT-0639286; and $
for ANT-0937462. However, due to the commingling of direct and indirect costs in UW-M’s
accumulated and claimed costs, DCAA could not verify the validity of these amounts (for
meaningful comparison with the budgeted F&A costs) or determine if UW-M correctly applied
its fixed F&A rate to only eligible direct costs. UW-M made an internal decision to direct all of
IceCube’s F&A recovery to benefit the departments responsible for this project, rather than have
the F&A recovery flow through the university-wide allocation process. Manually calculating the
F&A costs and commingling them in the direct internal services account was the method UW-M
used to direct the F&A recovery to the IceCube project.

Recommendation 2: DCAA recommends that UW-M use its usual method of recording F&A
costs to Account 3960-Indirect Costs to permit visibility into the F&A costs claimed on
reimbursable projects and also to prevent errors in determining the incurred F&A base costs for
other purposes, such as the determination of university-wide indirect cost rates. Use of UW-M’s
usual method of recording F&A costs, prior to transferring the cost recovery to the specific
program being benefitted, will ensure that accurate amounts of F&A costs are claimed on the
award. To ensure accountability for the IceCube project, OIG recommends that UW-M submit a

                                                  3
cost impact proposal and revised incurred cost statements for all three cooperative agreements.
OIG also recommends that NSF coordinate with HHS to obtain an audit of these submissions to
determine whether UW-M properly applied its approved F&A rate to only eligible direct costs
and adjust the statements, as needed, based on the results of audit.


3. Contingency Charges not Segregated in the Cost Accumulation Records. UW-M’s
accounting records do not segregate actual contingency costs (i.e., those costs arising out of
expenditures of proposed contingency funds) from other accumulated costs resulting in a
noncompliance with both CAS 501 [48 CFR 9905.501-40(b)] and OMB Circular A-
110.C.21.b.4. Cooperative Agreement No. ANT-0236449 includes a budgeted amount for
contingency costs of $43,960,372. However, actual contingency costs were not accumulated and
tracked in a manner consistent with how they were estimated. Specifically, UW-M did not
properly segregate and account for its expenditure of contingency funds in its accounting
records. When contingency funds were expended, UW-M commingled these expenditures
among its several direct cost elements and did not identify or maintain visibility of actual
contingency costs or the associated indirect F&A costs that resulted from expenditures of
contingency funds. Consequently, there was no trackability or comparability for this significant
cost element. CAS 501 [48 CFR 9905.501-40(b)] states that “an educational institution's cost
accounting practices used in accumulating and reporting actual costs for a contract shall be
consistent with the institution's practices used in estimating costs in pricing the related proposal.”
Also, OMB Circular A-110 C.21.b.4 states that recipients’ financial management systems shall
provide for “comparison of outlays with budget amounts for each award.” UW-M’s accounting
system must be able to accumulate actual costs in such a manner so that proposed budget line
items (at whatever level of detail proposed) can be compared with actual costs. Such
comparisons provide an important tool for financial control over costs during award performance
and aid in establishing accountability for costs in the manner agreed to by both parties at the time
of award.

In addition, UW-M proposed contingency costs under the category “Other Direct Costs” on the
proposal summary form submitted to NSF and excluded the contingency costs from the base
used to calculate the indirect F&A costs on the form. However, while UW-M did not maintain
visibility of actual contingency costs in its accounting records, DCAA noted that as much as
       million of the $43.9 million of contingency costs, presented to NSF on the proposal
summary form as “Other Direct Costs,” may have been charged to NSF as indirect costs. DCAA
stated that, by not segregating proposed contingency costs as direct and indirect costs on the
proposal summary form, UW-M could create confusion on the nature of the costs proposed.
Knowledge of the proposed direct and indirect costs at the summary level is necessary to enable
government representatives to make informed award decisions.

DCAA also noted that UW-M’s CAS Disclosure Statement does not specifically address its cost
accounting practices related to contingency costs. The CAS Disclosure Statement is a
university’s description of its cost accounting practices used to charge costs on all federal
awards, which is required to be submitted to the cognizant federal agency. It distinguishes
between direct and indirect costs and describes the criteria and circumstances for charging those



                                                  4
costs to its awards. Universities are required to consistently follow disclosed accounting
practices in their Disclosure Statements and to maintain accurate Disclosure Statements.

Recommendation 3: DCAA recommends that UW-M establish a practice to segregate
contingency costs in its accounting records. OIG recommends that proposed contingency costs
be clearly identified as to direct and indirect costs on the pricing proposal summary form
submitted to NSF. OIG also recommends that UW-M revise its CAS Disclosure Statement to
accurately and completely describe its accounting practices related to contingency costs.


4. Relocation Expense Charged Direct. UW-M charged relocation costs as direct costs on
Cooperative Agreement Nos. ANT-0236449 and ANT-0639286, even though UW-M’s practice
is to normally charge relocation costs as indirect F&A expenses. UW-M did not provide the
justification required by its CAS disclosure statement (DS-2) for charging the relocation as direct
costs. Therefore, DCAA cited UW-M’s accounting practice as being noncompliant with CAS
502 (48 CFR 9905.502-40), which states that “all costs incurred for the same purpose, in like
circumstances, are either direct costs only or indirect costs only with respect to final cost
objectives.” DCAA questioned $           accordingly.

Recommendation 4: DCAA recommends that the $                   of increased costs to NSF be
disallowed. OIG recommends that UW-M’s F&A rate (                  be added to the direct costs
disallowed, if UW-M applied its F&A rate to those costs in making its claim.


UW-M’s Reaction and Auditor’s Response

UW-M disagreed with each of the four noncompliances and provided a written response stating
its position. DCAA considered UW-M’s response in its final audit report, but did not change its
audit position. UM-W’s reaction and DCAA’s response are included in the attached report.
Also, the attachments referenced in UW-M’s response have been provided separately to the
resolution officials.

We consider the issues in this report to be significant. In accordance with OMB Circular A-50,
please coordinate with our office during the six-month resolution period to develop a mutually
agreeable resolution of the audit findings. Accordingly, we request that NSF work with HHS-
DCA and with UW-M to develop a written Corrective Action Plan detailing specific actions
taken and/or planned to address each report recommendation. Milestone dates should be
provided for corrective actions not yet completed. Also, the findings should not be closed until
NSF determines that the recommendation has been adequately addressed and the proposed
corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to NSF officials. The responsibility for audit
resolution rests with HHS and with NSF Division of Acquisition and Cooperative Support
(DACS). Accordingly, we ask that no action be taken concerning the report’s findings without
first consulting DACS at (703) 292-8242.



                                                5
OIG Oversight of Audit

To fulfill our responsibilities to ensure that DCAA complied with Generally Accepted
Government Auditing Standards, the Office of Inspector General:

      •   Reviewed DCAA’s approach and planning of the audit;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss
          audit progress, findings and recommendations;
      •   Had discussions with HHS-DCA officials;
      •   Reviewed the audit report prepared by DCAA to ensure compliance with Generally
          Accepted Government Auditing Standards and Office of Management and Budget
          Circulars; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on UW-M’s Noncompliance with CAS
501, 502 and its Disclosed Practices for the IceCube Cooperative Agreements and the
conclusions expressed in the report.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Sherrye McGregor at (703) 292-5003, David Willems
at (703) 292-4979, or Jannifer Jenkins at (703) 292-4996.


Attachment :
DCAA Audit Report No. 3191-2013W19200002-R1 (Revised); Independent Audit of University
of Wisconsin-Madison (UW-M), Noncompliance with CAS 501, 502 and its Disclosed Practices,
dated February 8, 2013.



cc:       Kelly Kenison Falkner, OPP
          Scott Borg, OPP
          Martha Rubenstein, BFA
          Mary Santonastasso, DIAS
          Mark Coles, MPS
          Clifford Gabriel, OD
          Scott Horner, LFO




                                              6
